Audit of USAID’s Training, Use and
Accountability of Cognizant Technical Officers
Audit Report Number 9-000-04-003-P

March 31, 2004




                 Washington, D.C.
March 31, 2004

MEMORANDUM
FOR:          M/HR/OD Director, Rose Marie Depp
              M/OP/OD Director, Timothy T. Beans

FROM:         IG/A/PA Director, Nathan S. Lokos /s/

SUBJECT:      Audit of USAID’s Training, Use and Accountability of Cognizant
              Technical Officers
              (Report No. 9-000-04-003-P)


This memorandum transmits our final report on the subject audit. In finalizing
this report, we considered your comments on our draft report and have included
your comments in their entirety in Appendix II.

This report includes five procedural recommendations. In your written comments,
you concurred with these recommendations and identified actions to address our
concerns. Consequently, management decisions have been reached on all five
recommendations. Please provide documentation supporting final action on these
recommendations to USAID’s Office of Management Planning and Innovation.

I want to express my sincere appreciation for the cooperation and courtesy
extended to my staff during the audit.
(This page intentionally left blank.)
Table of   Summary of Results.....................................................................................5
Contents
           Background ..................................................................................................6

           Audit Objectives ..........................................................................................7

           Audit Findings .............................................................................................7

                      Did USAID provide adequate training
                      and guidance to its cognizant technical officers
                      to help ensure that they were aware of and
                      capable of performing their responsibilities?...................................7

                                 USAID Needs to Provide Additional
                                 CTO Training .......................................................................8

                      Did USAID hold its cognizant
                      technical officers accountable for performing
                      their responsibilities in accordance with
                      USAID policies and regulations?...................................................14

                                 USAID Needs to Strengthen Evaluation
                                 Of CTO Performance.........................................................14

                                 CTO Designation
                                 Letters Should Be Issued....................................................18

           Management Comments and Our Evaluation ............................................20

           Appendix I - Scope and Methodology .......................................................21

           Appendix II - Management Comments......................................................25

           Appendix III - Summary of Selected Audit Recommendations……….…27

           Appendix IV – Worldwide Audit Reports Issued ................……………. 31




                                                                                                                            3
(This page intentionally left blank.)




                                        4
Summary of   This report summarizes the results of six Office of Inspector General (OIG) audits
Results      conducted at selected missions worldwide and one audit conducted at several
             USAID/Washington, D.C. bureaus. In addition to summarizing results, this report
             addresses Agency-wide issues identified during the course of these audits. (See
             Appendix III for a summary of audit recommendations, both by type of
             recommendation and by operating unit audited, and Appendix IV for a list of
             audit reports issued.)

             The audits were conducted as part of the OIG’s multi-year strategy for auditing
             USAID procurement activities. They were conducted to determine if USAID
             provided adequate training and guidance to its cognizant technical officers
             (CTOs) and held them accountable for performing their responsibilities in
             accordance with USAID policies and regulations. (See page 7.)

             CTOs are important members of USAID’s acquisition and assistance teams. The
             term acquisition entails the use of contracts, while the term assistance involves
             the use of grants or cooperative agreements. It is the CTO’s responsibility to
             ensure—through liaison with the contractor or recipient—that the terms and
             conditions of the acquisition or assistance instrument are accomplished. (See
             page 6.)

             The audits found that, in general, USAID had provided adequate guidance but had
             not provided CTOs enough training to acquire core competencies or to understand
             and perform the full range of tasks assigned to them. USAID either lacked a
             mechanism to identify the training needed or did not properly monitor the
             mechanism in place. (See page 8.) In addition, USAID did not hold all its CTOs
             accountable for the performance of the tasks assigned to them and, in some cases,
             did not evaluate CTOs at all. (See page 14.)

             This report includes five recommendations. To strengthen CTO training, we
             recommend that USAID identify its CTOs and develop training plans. (See page
             14.) To strengthen CTO accountability, we recommend that USAID incorporate
             CTO responsibilities into performance documents, perform annual evaluations,
             and solicit feedback on CTO performance. (See pages 17 and 18.)

             Management’s comments are included in their entirety in Appendix II. In their
             comments, the Office or Human Resources and the Office of Procurement
             concurred with our recommendations and described the actions planned to address
             our concerns. When fully implemented, these actions should significantly
             strengthen CTO training and accountability. (See page 25.)




                                                                                             5
Background   USAID uses the term cognizant technical officer (CTO) in lieu of other
             commonly used U.S. Government terms, such as contracting officer’s technical
             representative or contracting officer’s representative. The term CTO denotes that
             the individual may be responsible for certain defined actions involving grants and
             cooperative agreements, as well as contracts. CTOs fulfill a vital role in USAID’s
             acquisition and assistance process; when acting within the scope of their
             delegated authority, they bind the U.S. government as surely as the contracting
             officer.1

             CTOs fulfill a vital role in USAID’s acquisition and assistance process. They are
             responsible for performing critical procurement tasks, such as:

             •        Verifying that USAID-funded activities conform to the terms and
                      conditions of the award, to technical requirements, and to quality
                      standards.

             •        Administering financial management responsibilities, such as voucher
                      approval, forward funding, deobligations, and closeouts.

             •        Monitoring, evaluating, and reporting on contractor and recipient
                      performance.

             •        Conducting price and cost determinations.

             As a practical matter, contracting officers do not have sufficient technical
             expertise or time to ensure successful administration and completion of all aspects
             of each award. Therefore, they rely on CTOs to act for them with respect to
             certain critical administrative actions and technical issues arising under these
             awards. It is the CTO’s responsibility to ensure—through liaison with contractors
             or recipients—that the technical and financial aspects of the acquisition or
             assistance instrument are realized. For that reason, contracting officers are
             required to designate a properly trained individual to serve as the CTO for each
             contract or assistance award.

             USAID’s Office of Human Resources, Learning Support Division, has designed
             an acquisition and assistance training program based on the core competencies
             required by the Office of Management and Budget’s Office of Federal
             Procurement Policy. Core competencies consist of the knowledge and skill areas
             required by CTOs to administer contracts, grants, and cooperative agreements,
             such as the ability to develop contract requirements, conduct market research, and
             monitor performance. The training program is designed to provide CTOs with the
             1
               For purposes of this report, the term “contracting officer” is used to represent contracting office
             staff responsible for awarding contracts, grants, or cooperative agreements.




                                                                                                                6
                   basic knowledge and skills needed to effectively fulfill their responsibilities. A
                   CTO is certified after successfully completing the program.

                   Three Washington bureaus2 and six missions3 were selected for audit. During
                   fieldwork (from October 2002 through July 2003), these bureaus and missions
                   had approximately 276 designated CTOs who, according to unaudited information
                   provided by the units, were responsible for managing contracts, grants, and
                   cooperative agreements estimated at $7.4 billion.



Audit Objectives   This worldwide audit was conducted as part of the OIG’s multi-year strategy for
                   auditing USAID’s procurement activities to answer the following questions:

                   • Did USAID provide adequate training and guidance to its cognizant technical
                     officers to help ensure that they were aware of and capable of performing their
                     responsibilities?

                   • Did USAID hold its cognizant technical officers accountable for performing
                     their responsibilities in accordance with USAID policies and regulations?

                   Appendix I contains a discussion of the audit’s scope and methodology. (Page 21)



 Audit Findings    Did USAID provide adequate training and guidance to its cognizant technical
                   officers to help ensure that they were aware of and capable of performing their
                   responsibilities?

                   USAID provided adequate guidance but did not provide enough training to its
                   cognizant technical officers (CTOs) to ensure that they not only understood the full
                   range of assigned tasks but also had the competence and confidence to perform these
                   tasks successfully.

                   Examples of guidance commonly available included appropriate chapters of
                   USAID’s Automated Directives System, USAID Acquisition Regulations, Contract
                   Information Bulletins, the Guidebook for Managers and CTOs, and the Federal
                   Acquisition Regulations, as well as communications with contracting officers.

                   2
                     The three bureaus audited included one geographic bureau—Asia and the Near East—and two
                   pillar bureaus—Global Health and Economic Growth, Agriculture and Trade. The report on this
                   audit is included in the list of audit reports issued in Appendix IV.
                   3
                    The six missions audited were Guatemala (Central American Program), Nepal, Egypt, Mexico,
                   Malawi, and the Central Asian Republics. See Appendix IV for the list of audit reports issued.




                                                                                                               7
However, CTOs responding to an OIG questionnaire4 reported that they needed
additional training in many of the core competencies established by USAID.
Contracting officers, contractors, and recipients also reported that CTOs needed
more training, especially in the following areas: financial management, procurement
regulations, and CTO authorities. The need for USAID to provide additional
training is discussed in further detail below.

USAID Needs to Provide Additional
CTO Training

Contrary to requirements of the Office of Federal Procurement Policy (OFPP),
USAID’s Automated Directive System (ADS) and, in some cases, mission orders,
USAID did not provide enough training to its CTOs to ensure that they understood
and could perform the tasks assigned to them. More than two-thirds (69 percent) of
the 1915 CTO questionnaire respondents reported that they needed training in
specific competencies required to perform their tasks. This lack of training came
about because training plans had either not been prepared or had not been properly
monitored. As a result, problems occurred because CTOs had not fully understood
the responsibilities and authorities delegated to them.

OFPP Policy Letter No. 97-01 requires agencies to develop training requirements
to ensure that contracting officers and CTOs possess certain core competencies.
(See page 6.) ADS 202 acknowledges OFPP’s training requirements and discusses
how USAID officials should comply with them. It also recognizes that there may be
times when it is necessary to nominate an individual to be designated as CTO who
does not have the mandatory training required by OFPP. In these cases, the
operating unit should develop a written plan that allows that individual to receive
the necessary training as quickly as possible in order to obtain these competencies
and subsequent certification.

In many cases, mission orders even provided guidance to mission personnel on
the preparation, submission, and monitoring of training plans. Properly
implemented and maintained, these training plans would provide a mechanism to
identify training needs and ensure that those requiring training received it.

CTOs are a highly educated group—72 percent of those completing the
questionnaire possess at least a masters degree; 25 percent have a PhD, MD, JD,
or other professional degree. The need for CTO training, however, is driven by
the fact that CTOs are hired primarily on the basis of their technical skills, not

4
 The OIG distributed a questionnaire to selected CTOs in the bureaus and missions audited. See
page 22 for further discussion.
5
 Of the 199 CTOs responding to the questionnaire, 191 completed some portion of the multi-part
question regarding specific training needs. See Table 1 on page 10 for a summary of results.




                                                                                            8
their procurement or business management skills. Procurement management
training is necessary to ensure that they have the skills to properly perform their
tasks.

A recently completed study6 commissioned by USAID supports this need for
CTO training. The study concluded that new Foreign Service Officers must have
the skills necessary to serve as CTOs and should have CTO certification and strong
managerial skills. A related study7 found that Foreign Service Officers today find
themselves “engaged in greater management and administration of people and
projects, and in far less direct technical implementation.” The study recommended
that USAID begin recruiting “managers of technical resources, as opposed to the
traditional technical implementer.”

A significant number of CTOs responding to the OIG questionnaire reported a need
for more training. One of the questions asked respondents to indicate the amount of
training they had taken in various core competencies within the last two years—on
the average, nearly half (48 percent) of the respondents indicated they had not taken
any training in the core competencies listed.

Another question asked whether they needed additional training in the various core
competencies to properly perform their CTO duties. On the average, more than two-
thirds (69 percent) of the 191 respondents indicated they needed more training in
various core competencies. As shown in the table on page 10, a significant number
believed they needed additional training in specific competencies.            The
questionnaire results for selected competencies are summarized in the following
table.




6
    “Evaluation of USAID’s NEP Training Program,” ICF Consulting, October 16, 2003.
7
    “Evaluation of USAID’s Foreign Service Recruitment Programs,” ICF Consulting, July 7, 2003.




                                                                                              9
Table 1: Number and Percentage of CTOs Responding to an OIG
Questionnaire Who Said They Needed Additional Training in Selected
Competencies Required to Administer Contracts, Grants, or Cooperative
Agreements
                                                                                    CTOs Who Said
                                                                                     They Needed
                                                                                    More Training
                                                                      No. of CTOs
                                                                      Responding     No.    %
                Required Competencies for Contracts
Ability to request/assess bids and proposals                             189         147    78
Ability to develop contract requirements, conduct market research,
and prepare required documents and statements of work                    188         146    78
Ability to conduct price and cost determinations                         189         142    75
Ability to process close-outs, terminations, appeals, and protests       186         138    74
Knowledge of contracting law and regulations                             189         139    74
Knowledge of documentation requirements, including tracking
orders, deliverables, timesheets, and other record keeping               183         124    68
Ability to monitor contractor performance                                188         123    65
Ability to process contracting actions                                   188         120    64
Knowledge of contracting ethics including conflicts of interest and
security of information                                                  189         113    60
Ability to administratively approve vouchers for payment                 187          99    53
                 Required Competencies for Grants
                    and Cooperative Agreements
Ability to process closeout procedures                                   183         138    75
Knowledge of USAID's policy on competition                               184         138    75
Knowledge of elements of an award                                        178         122    69
Knowledge of USAID source/origin/nationality requirements                183         121    66
Knowledge of types of assistance instruments                             185         122    66
Ability to monitor and evaluate recipients' performance                  184         117    64
Ability to review and analyze performance and financial reports and
verify timely delivery                                                   183         114    62
                    Other Skills and Competencies
Proficiency using financial systems                                      191         127    66

The contracting officers interviewed also reported that CTOs needed additional
training and specified the following areas:

•        Financial management, including cost reviews and analysis, budget
         processes, and “working with numbers.”

•        USAID policies and procedures, including the procurement process and
         activity and project management.

•        Contracting ethics and the limits of CTO authorities.



                                                                                                    10
The individual audit reports (see Appendix IV) noted a number of reasons leading to
the need for additional training, for example:

•       Lack of or inadequate monitoring of training plans8:

             9 Three of the six missions audited did not comply with their own
               mission orders related to training plans.

•       Confusion over the training required for certification and equivalencies for
        prior courses taken.9

•       Limited resources, lack of funding, and course unavailability.

Additionally, CTOs reported that they lacked training because the training program
had been suspended while USAID’s Office of Human Resources, Learning Support
Division redesigned the certification courses. Four new courses required for
certification began in 1998. In the fall of 2002, the four courses were condensed into
three, and several months later were further condensed into two courses. When the
new streamlined certification courses began in the fall of 2002, courses were over-
subscribed and many CTOs were unable to attend.

Fortunately, the Learning Support Division reported that the 2004 fiscal year CTO
training budget has been increased, enabling the Division to offer additional courses.
Although course schedules for the two years are not comparable on a one-to-one
basis due to changes in the number, content, and titles of courses required for
certification, seven more USAID/Washington-funded Acquisition and Assistance
Management courses are scheduled for fiscal year 2004 compared to fiscal year
2003. Additionally, although not required for certification, the number of courses
for CTO supervisors has more than doubled.

CTOs also indicated that their heavy workloads made it difficult to spend one or two
weeks at a time in training. Most (70 percent) of the questionnaire respondents
worked on two or more awards at the same time, while many (25 percent) worked
on at least four simultaneously. In addition to their CTO responsibilities, they had
programmatic and sometimes supervisory responsibilities. As a result, they reported
that they often had only limited time to dedicate to CTO training.



8
  None of the three bureaus audited had prepared written training plans; neither had two of the six
missions audited. One of the six missions had developed training plans, but had not adequately
monitored or maintained these plans. Recommendations directed to the missions and bureaus
involved were made to address this issue.
9
  As of the issuance date of this report, USAID is revising the related ADS. This revision should
clarify certification requirements as well as course equivalencies.




                                                                                               11
In USAID/Washington, in addition to lacking individual training plans for their
uncertified CTOs, the bureaus audited did not maintain updated comprehensive
lists of their CTOs (master lists). Master lists are important because they identify all
the CTOs who potentially need training. Without such lists, the bureaus were unable
to verify whether all their CTOs had received the training necessary for certification.
Although the Learning Support Division had developed a database of those who had
completed training, there was no mechanism in place to ensure that CTOs who
needed training actually received it. According to bureau personnel, master lists
were not maintained because USAID’s financial management and procurement
systems did not generate an accurate inventory of each bureau’s awards, detailing
the CTO responsible for managing each award.

Moreover, bureau personnel also indicated that they had made repeated attempts to
correct the CTO-related information in the systems but the information remained
outdated.10 Although bureau personnel believed master lists would be useful, they
felt it would be too labor-intensive to produce such lists themselves due to frequent
personnel changes and a recent bureau reorganization. Additionally, because ADS
202 did not specify a deadline for CTO certification, the bureau personnel did not
feel monitoring CTO training was a priority.

The lack of training mentioned above was mitigated somewhat by other guidance
provided to CTOs. The guidance differed among the various audit locations.
Although there is no one central source of guidance, CTOs, their supervisors, and
contracting officers interviewed offered the following examples of guidance
commonly available to CTOs:

•        Routine visits, telephone, and electronic mail communications by
         contracting officers.
•        USAID’s Automated Directives System, Acquisition Regulations, and
         Contract Information Bulletins.
•        Federal Acquisition Regulations.
•        Learning Support Division classroom materials.
•        Guidebook for Managers and CTOs (last revised November 1998).
•        The contract, grant, or agreement instrument.
•        Designation letters.11




10
  Bureau personnel also reported that the lack of master lists resulted in delays in voucher processing
and problems managing quarterly accruals, unexpended balances, and deobligations. These concerns
were referred to the OIG’s Financial Audit and Information Technology and Special Audit
Divisions.
11
   This source of guidance was unavailable to those USAID/Washington CTOs who were not
issued designation letters, as discussed on page 18.




                                                                                                   12
CTOs who understand their roles and responsibilities contribute to an effective
and efficient procurement process. It is critical that trained personnel administer
this process, given that USAID is essentially a procurement and project
management agency. Contracting officers who worked directly with CTOs
described problems that occurred because CTOs had not fully understood the
responsibilities and authorities delegated to them. For example:

•      CTOs had inappropriately approved actions, made unauthorized
       commitments, and made informal promises without the prior approval of
       the contracting officer:

       9 On several occasions, this caused the contracting officer to modify the
         contract, creating additional cost for USAID.

       9 In a recent case, a CTO performed unauthorized procurement activities
         in modifying an award by $1 million.

       9 In another case, a CTO performed work that the contracting officer
         should have done, causing the contractor involved to file a protest.

•      CTOs became overly involved with implementing partners without regard
       to the type of instrument the partner was implementing, resulting in
       micromanagement of grants and cooperative agreements. Also, some
       CTOs became involved in conflicts of interest, such as:

       9 Riding into work with a contractor or prospective contractor.

       9 Accepting lunches and other inappropriate invitations.

       9 Trying to obtain sensitive procurement information from the
         contracting officer.

Contractors and recipients also reported problems that arose because CTOs did
not understand the limits of their authority. Several stated that some CTOs were
inappropriately involved in staffing, office space, and travel budget decisions.
Some noted that there seemed to be a fair amount of confusion over CTO roles
and their authority to make certain decisions, as well as in determining their
boundaries in overseeing the various types of instruments used by USAID.

In summary, when untrained individuals do not perform their duties properly or
on a timely basis, contracting officers must ultimately complete or correct the
CTOs’ work. This in turn interferes with the performance of the contracting
officers’ already burdensome workload and may cause contracts to be modified or
USAID to incur additional costs. If CTOs are expected to perform critical tasks
efficiently and correctly, they must be fully aware of the extent of their




                                                                                13
responsibilities and have the requisite competencies to perform them. Therefore,
we are making the following Agency-wide recommendations:

       Recommendation No. 1: We recommend that the Office of
       Procurement, in coordination with the Bureaus and Offices,
       maintain updated master lists of its cognizant technical
       officers. These lists should indicate whether or not each officer
       is certified.

       Recommendation No. 2: We recommend that the Office of
       Human Resources, in coordination with the Office of
       Procurement, develop training plans for its uncertified
       cognizant technical officers and schedule them to attend the
       training required for certification.


Did USAID hold its cognizant technical officers accountable for performing
their responsibilities in accordance with USAID policies and regulations?

USAID did not hold all of its CTOs accountable for performing their CTO-related
responsibilities. In many cases, contrary to Federal regulations and USAID
guidance, USAID did not establish performance expectations for critical CTO
tasks. Position descriptions, annual performance plans, and annual work
objectives often did not include CTO duties and responsibilities. Furthermore,
some CTOs were not evaluated at all. As a result, CTOs were not always
evaluated as to how well they performed their CTO duties. In addition, USAID
did not require supervisors to contact contracting officers and other pertinent
sources for input as to the CTO’s performance. Lastly, many CTOs in
USAID/Washington did not have designation letters; the Office of Procurement
has drafted a policy directive to correct this issue. The importance of building
accountability into the evaluation process is discussed in the following sections.

USAID Needs to Strengthen the
Evaluation of CTO Performance

As indicated above, many CTOs were not evaluated on their performance of CTO
tasks. In some cases, CTOs were not evaluated at all. Furthermore, supervisors
responsible for evaluating CTOs did not always solicit feedback from contracting
officers and other pertinent sources as part of the annual performance evaluation
process.

Performance of CTO Duties Should Be Evaluated – Contrary to Federal
regulations and USAID guidance, USAID did not always establish performance
expectations for critical CTO tasks and evaluate CTOs against those expectations.
Although CTOs play a critical role in the acquisition and assistance process,
USAID did not hold all of its CTOs accountable for performing their



                                                                               14
responsibilities. Almost half (45 percent) of the CTOs interviewed could not
demonstrate that they were held accountable for performing their CTO tasks.
This situation occurred because, in some cases, a greater emphasis was placed on
program management and technical skills and performance than on CTO
competencies and performance. As a result, USAID management could not make
fully informed judgments as to which CTOs were performing their duties
adequately.

According to the Office of Personnel Management’s 2001 A Handbook
Measuring Employee Performance, performance management is the systematic
process of:

•          Planning work.
•          Setting expectations for critical tasks.
•          Monitoring performance.
•          Developing the capacity to perform.
•          Rating performance periodically.
•          Rewarding good performance.

An important element in this process is establishing performance expectations for
critical tasks and periodically assessing actual performance against those
expectations. Accordingly, Federal regulations and USAID policies require that
employees and personal services contractors have established work objectives and
that those staff be evaluated annually. For example:

       •   ADS 462, entitled Employee Evaluation Program, requires that
           supervisors work with U.S. direct-hire employees to develop annual
           employee performance plans that contain work objectives and
           performance measures for critical tasks against which actual performance
           will be compared. Similarly, although it does not dictate the nature and
           extent of the written evaluation, USAID Acquisition Regulations require that
           U.S. personal service contractors (USPSCs) perform satisfactorily, as
           evidenced in their annual written evaluation, to qualify for annual salary
           increases. On the other hand, an evaluation is not required if a USPSC is
           ineligible for a salary increase.

       •   The Foreign Affairs Handbook12 requires that USAID prepare annual
           performance evaluation reports for all foreign service national (FSN)
           employees based on their position descriptions. Moreover, FSNs under
           personal service contracts must also be evaluated in the same manner as
           direct-hire FSN employees, since the Foreign Affairs Manual indicates that
           personal services contracts with host country nationals (including third

12
     Foreign Affairs Handbook, 3 FAH-2 H-135.5.




                                                                                    15
         country nationals [TCNs]) must conform to the conditions of employment
         for direct-hire FSN employees.13

     •   While USAID does not have a formal policy regarding performance
         evaluations for other employment categories, such as Resources Support
         Service Agreements (RSSAs) and Technical Assistance in AIDS and Child
         Survival (TAACSs), best practices dictate that they should be held
         accountable for the performance of critical tasks in a manner similar to other
         employees.

USAID’s CTOs are hired under a variety of employment mechanisms that fall
into several of the categories mentioned above. When asked their workforce
category, questionnaire respondents answered as follows:

         Direct-hire employees                                                  105
         USPSCs                                                                  34
         Foreign service national personal service contractors (FSNPSCs)         28
         RSSAs                                                                   12
         TAACSs                                                                  17
         Other                                                                    3
                                                                                199

These CTOs generally spent a significant amount of their workday on CTO-
related tasks. Seventy-six percent of questionnaire respondents indicated that
they spent more than 25 percent of their time on CTO tasks; nearly half (49
percent) spent more than 50 percent of their workday on CTO tasks.
Additionally, the vast majority of respondents (85 percent) felt that fulfilling CTO
responsibilities was an important part of their overall job performance.

Despite their critical role and the amount of time spent on CTO-related activities,
54 of the 119 (45 percent) individuals selected for interviews could not
demonstrate that they had tasks specific to their CTO responsibilities included in
their performance management documents (e.g., in their position descriptions,
statements of work, work objectives, and/or performance measures). Of these:

•        Thirty-six were PSCs:

            9 Eighteen were USPSCs: six had no work objectives at all, and two
              were not evaluated because they were at the top of their salary
              range.
            9 Eighteen were FSNPSCs: two of whom had no work objectives at
              all.


13
  FSNs are addressed in the Foreign Affairs Manual (FAM) in 3 FAM 7261.4, while TCNs are
addressed in 3 FAM 7121.




                                                                                      16
•      Fourteen were direct-hire employees.

•      Four were RSSAs and TAACSs:

           9 One RSSA did not have work objectives or a position description
             and had not been evaluated in over 12 years—since 1991.

One reason for the omission of CTO-specific tasks is that CTOs have overlapping
and complementary responsibilities for programmatic and administrative
management of a USAID activity. Although both sets of responsibilities are
critical to the activity’s success, several contracting officers believed that
programmatic responsibilities were considered a higher priority, even though the
CTO duties were often the most time-consuming. Because of this bias, position
descriptions, performance plans, statements of work, and work objectives for
many of the CTOs emphasized their programmatic responsibilities, but not their
CTO duties.

Of course, compounding this situation is the fact that written annual evaluations
are required for USPSCs only to qualify for annual salary increases. This resulted
in some USPSCs at the top of their salary ranges not being evaluated.
Additionally, USAID does not have a formal policy regarding evaluations in the
case of RSSAs and TAACSs because the terms of their evaluations are governed
by their sponsoring agency. Twenty-nine of the 199 questionnaire respondents
were either RSSAs or TAACS, creating the potential for a significant number of
unevaluated CTOs. Indeed, as mentioned above, one RSSA serving as a CTO had
not been evaluated since 1991.

When CTOs are not formally evaluated on the performance of their CTO duties,
USAID management cannot make fully informed judgments as to which CTOs
are performing those duties adequately, which are excelling and which require
additional help, such as training and supervision. Since CTOs play a significant
role in the successful and efficient implementation of the contracts, cooperative
agreements and grants through which USAID expects to achieve its program
goals, it is important that CTOs be held accountable for the execution of those
tasks. Accordingly, we are making the following Agency-wide recommendations
to strengthen CTO accountability:

       Recommendation No. 3: We recommend that the Office of
       Human Resources, in coordination with the Office of
       Procurement, incorporate cognizant technical officer duties and
       responsibilities into the position descriptions, work objectives,
       and statements of work of each individual designated to serve as
       a cognizant technical officer.

       Recommendation No. 4: We recommend that the Office of
       Human Resources, in coordination with the Office of



                                                                               17
           Procurement, annually evaluate each individual designated to
           serve as a cognizant technical officer based on the performance
           of their cognizant technical officer duties and responsibilities.


360-Degree Input Should Be Obtained From Contracting Officers – ADS
462, which governs USAID’s employee evaluation program, notes that in
preparing performance evaluations, rating officials must utilize information
solicited from individuals who can provide informed views of the employee’s
performance during the rating cycle (360-degree input sources).14 Soliciting
information from 360-degree input sources is an important step in preparing any
performance evaluation, because it can identify relevant information that might
not be obtained either through direct observation of the employee or from the
employee themselves.

In the case of CTOs, contracting officers, who are responsible for designating the
CTO and have immediate knowledge of their performance, are excellent sources of
360-degree input. The majority (83 percent) of the contracting officers interviewed
felt that they should be asked for such feedback. Although most had been asked for
feedback in the past, it happened infrequently. This was because USAID does not
specifically require that supervisors solicit comments related to the performance of
CTO tasks from contracting officers and other pertinent sources. Consequently,
CTO performance evaluations may not have accurately reflected the actual
execution of CTO duties.

CTOs play a key role in the successful implementation of USAID activities.
Because it is important that performance evaluations be as accurate and realistic
as possible, we are making the following Agency-wide recommendation to
strengthen USAID’s evaluation of CTOs:

           Recommendation No. 5: We recommend that the Office of
           Human Resources, in coordination with the Office of
           Procurement, require that supervisors, when preparing annual
           performance evaluations, solicit comments from contracting
           officers and other pertinent sources on the cognizant technical
           officer’s performance of his or her relevant tasks.


CTO Designation
Letters Should Be Issued

In addition to performance evaluations, CTO accountability is maintained through
the use of designation letters, which clearly delineate CTO responsibilities and

14
     ADS 462.3.5.c., “Gathering Appraisal Information.”




                                                                                 18
limitations. Federal Acquisition Regulations require contracting officers to
provide written authorization to delegate contract administrative responsibilities.
Additionally, USAID’s Contract Information Bulletin 93-0815 and ADS 202
require that contracting officers designate in writing the individual nominated by
the strategic objective team to be the CTO. Without such letters, CTOs and
contractors may be unaware of the limits and extent of CTO authorities and
responsibilities.

Our audit found that while, for the most part, CTOs working in missions overseas
had been issued the required designation letters, the majority of CTOs interviewed
in USAID/Washington did not have them. One contracting officer interviewed
indicated that it was difficult to manage the issuance of designation letters because
the Office of Procurement did not have an updated list of pending procurement
actions or a reliable list of CTOs and awards. Another indicated that the Office of
Procurement had not been very good in the past about issuing designation letters and
needed to do a better job.

Also, several CTOs interviewed speculated that they had not been issued a CTO
designation letter because they had replaced the original CTO and the designation
letter had not been reissued. Others said that perhaps they had been designated in
the contract itself and that no separate designation letter had been issued. Although
we could not conclusively determine the cause, in the absence of such letters, CTOs
and contractors may be unaware of the limits and extent of CTO authorities and
responsibilities.

A recommendation addressing this issue was included in the audit report issued
for the USAID/Washington portion of this worldwide audit.16 As of the issuance
date of this report, the Office of Procurement is drafting an Acquisition and
Assistance Policy Directive entitled “Standardized Model Letters for Designating
the Cognizant Technical Officer for Contracts, Grants, and Cooperative
Agreements.” This directive acknowledges the importance of designation letters
and requires that letters be issued for all contracts (except for personal services
contracts and fixed-price supply contracts), grants, and cooperative agreements.
Due to the impending release of this directive, we did not find it necessary to
include a recommendation concerning designation letters in this summary report.




15
  Contract Information Bulletin 93-08 was issued by USAID’s Office of Procurement on March
10, 1993.
16
  Report No. 9-000-03-009-P, “Audit of USAID Bureaus’ Training, Use and Accountability of
Cognizant Technical Officers,” September 22, 2003.




                                                                                       19
Management       In their response to our draft report, the Office or Human Resources (HR) and the
Comments and     Office of Procurement (OP) concurred with our recommendations and described
Our Evaluation   the actions planned to address our concerns. They also proposed changes in the
                 wording of our recommendations, related to the appropriate action officer for each
                 recommendation. We incorporated these changes into our final recommendations.
                 When fully implemented, HR’s and OP’s actions should significantly strengthen
                 cognizant technical officer (CTO) training and accountability.

                 To address all five recommendations, HR and OP will issue a joint policy notice
                 addressing CTO training requirements as well as accountability issues. Therefore,
                 the recommendations and the related planned actions will become USAID policy
                 and adherence will be mandatory Agency-wide. The actions described below are
                 specific actions which will be incorporated into the joint policy notice.

                 To address Recommendation No. 1: OP, in coordination with the Bureaus and
                 Offices, will develop a format and procedures for the Bureaus and Offices to use
                 in establishing and maintaining their CTO master lists.

                 To address Recommendation No. 2: HR, in coordination with OP, will require a
                 program to develop, execute, and track individual training plans for all uncertified
                 CTOs.

                 To address Recommendation No. 3: HR, in coordination with OP, will advise
                 supervisors to prospectively incorporate CTO-related duties and responsibilities
                 into position descriptions, work objectives, and statements of work.

                 To address Recommendation No. 4: HR, in coordination with OP, will require
                 that annual performance evaluations of staff with CTO duties address their
                 performance of those duties.

                 To address Recommendation No. 5: HR, in coordination with OP, will advise
                 supervisors to obtain comments from contracting officers and other appropriate
                 sources in evaluating the employee’s annual performance of CTO-related duties
                 and responsibilities.

                 Based on management’s concurrence and their planned actions to address our
                 concerns, management decisions have been reached on all five recommendations.
                 Management’s comments are included in their entirety in Appendix II. (See page
                 25.)




                                                                                                  20
                                                                                   Appendix I


Scope and     Scope
Methodology
              The Office of Inspector General conducted these audits in accordance with
              generally accepted government auditing standards. This audit was designed to
              answer the following questions: Did USAID provide adequate training and
              guidance to its cognizant technical officers (CTOs) to help ensure that they were
              aware of and capable of performing their responsibilities? Did USAID hold its
              CTOs accountable for performing their responsibilities in accordance with
              USAID policies and regulations?

              In conducting the audits, we assessed the effectiveness of USAID’s management
              controls with respect to training CTOs and holding them accountable. We
              identified management controls as (1) the defining of training needs, (2) the
              developing and monitoring of training plans, (3) the establishing of work
              objectives and performance measures, and (4) the evaluating of actual
              performance. We conducted interviews with key USAID personnel, as well as
              with contractors and recipients. In addition, we reviewed pertinent employee
              evaluation documents and designation letters to determine compliance with
              Federal guidance and USAID policy.

              This report summarizes the results of audit work conducted at selected overseas
              USAID missions as well as an audit conducted at several USAID/Washington,
              D.C. bureaus.17 In addition, this report addresses Agency-wide issues identified
              in the course of these audits. Audit fieldwork was conducted in the following
              locations:

                     •   Washington, D.C., in three USAID bureaus—Bureau for Global Health,
                         Bureau for Asia and the Near East, and Bureau for Economic Growth,
                         Agriculture and Trade—from February 5 through June 24, 2003.

                     •   Guatemala, in Guatemala City, from October 21 through November 1,
                         2002.

                     •   Malawi, in Lilongwe, Blantyre, Mangochi, and Zomba, from May 12 to
                         May 30, 2003.

                     •   Kazakhstan (Central Asian Republics), in Almaty, from May 27 through
                         July 18, 2003.

                     •   Egypt, in Cairo, from March 18 through June 12, 2003.

              17
                   See Appendix IV for the list of audit reports issued.




                                                                                            21
     •   Nepal, in Kathmandu, from April 21 through May 1, 2003.

     •   El Salvador (for USAID/Mexico, by telephone, electronic mail, and fax)
         from March 31 through April 25, 2003.18

During fieldwork, the bureaus and missions audited had approximately 276
designated CTOs, who, according to unaudited information, were responsible for
managing contracts, grants, and cooperative agreements estimated at $7.4 billion.
USAID estimated that there were approximately 1,500 designated CTOs
worldwide; we distributed a questionnaire to 233 of these CTOs.

Methodology

Criteria for defining CTO roles and responsibilities included Office of Federal
Procurement Policy Letters, USAID’s Automated Directives System, Contract
Information Bulletins, and Acquisition Regulations. Criteria for holding CTOs
accountable, in addition to those described above, included the Foreign Affairs
Manual and Handbook. Criteria for defining essential CTO training requirements
included the regulations described above and Federal Acquisition Institute
Training Material.

To address the audit objectives we distributed a questionnaire to 233 of the 276
CTOs in the bureaus and missions audited; 199 responded. Questionnaires were
distributed to a judgmentally selected sample in the Washington portion of the
audit due to the large number of CTOs in the bureaus selected for audit; in each of
the six missions audited, 100 percent of the CTOs received questionnaires. From
the questionnaires, we obtained information on the CTOs’ background, training
taken, additional training needs, and experience performing their tasks. With the
exception of one mission audit,19 we did not develop materiality thresholds for
either of the audit objectives.

In addition to distributing questionnaires and summarizing and analyzing the
responses, we interviewed CTOs, supervisors, contracting officers, contractors,
and recipients. Judgmental sampling was used to select CTOs for interviews in
three of the mission audits and in the Washington portion of the audit; statistical
sampling was used in one mission audit; 100 percent of the CTO population was
interviewed in the remaining two mission audits. We also interviewed
judgmentally selected CTO supervisors, contracting officers, contractors and

18
  Due to travel restrictions, we conducted interviews with CTOs, supervisors, recipients, and
mission officials in USAID/Mexico by telephone from USAID/El Salvador. We received relevant
documentation from USAID/Mexico by electronic mail and fax.
19
  Report No. 1-523-03-005-P, “Audit of USAID/Mexico’s Training, Use and Accountability of
Cognizant Technical Officers,” June 27, 2003.




                                                                                          22
recipients. The interviews provided us with an understanding of how well CTOs
performed their tasks, the level of their understanding of what was expected of
them, and limits of authority and accountability issues.

To address the second audit objective, we reviewed pertinent employee evaluation
documents for the CTOs interviewed. We reviewed and analyzed position
descriptions, work objectives and statements of work, and performance
evaluations to determine if they included CTO duties. For those managing
contracts, we determined if designation letters had been obtained.




                                                                             23
(This page intentionally left blank.)




                                        24
                                                                                             Appendix II

Management
Comments
                                                                                          March 29, 2004

MEMORANDUM

TO:            IG/A/PA Director, Nathan S. Lokos

FROM:          M/MPI, Connie Turner /s/

SUBJECT:       Draft Report on Audit of USAID’s Training, Use and Accountability of Cognizant
               Technical Officers (Report No. 9-000-04-00X-P)

Thank you for the opportunity to provide management comments on this draft report. This memo
consolidates comments from M/MPI, M/OP, and M/HR. Following are our comments and planned
actions for each recommendation.

Recommendation No. 1: We recommend that USAID maintain updated master lists of its cognizant
technical officers. These lists should indicate whether or not each officer is certified.

Management Comments and Planned Actions: Please revise the wording of the audit recommendation
by replacing “USAID” with “the Office of Procurement, in coordination with the bureaus and offices”.
M/OP concurs with this recommendation that the bureaus, offices, and missions to which CTOs are
assigned maintain updated master lists of their respective CTOs to ensure that those officers requiring
training receive it on a timely basis. M/HR and M/OP will jointly prepare and issue a Policy Notice
regarding CTO training (see the Management Comments for recommendations 2 through 5). As an
attachment to this Notice, M/OP will develop a standardized format and procedures for bureaus, offices,
and missions to use in establishing and maintaining their master lists of CTOs.

Recommendation No. 2: We recommend that USAID develop training plans for its uncertified
cognizant technical officers and schedule them to attend the training required for certification.

Management Comments and Planned Action: Please revise the wording of the audit recommendation by
replacing “USAID” with “the Office of Human Resources, in coordination with the Office of
Procurement”. M/HR and M/OP concur with the recommendation that supervisors develop training
plans jointly with their employees and these plans should take into account the need to incorporate
necessary training for performance of CTO responsibilities. M/HR will develop with M/OP a joint
Policy Notice regarding CTO training requirements and the need for bureaus to initiate a program to
develop, execute, and track individual training plans for all uncertified CTOs. Individual Development
Plans, Form AID 400-21 (12/03), will be used for this purpose.

Recommendation No. 3: We recommend that USAID incorporate cognizant technical officer duties and
responsibilities into the position descriptions, work objectives, and statements of work of each
individual designated to serve as a cognizant technical officer.


                                                                                                     25
Management Comments and Planned Action: Please revise the wording of the audit recommendation by
replacing “USAID” with “the Office of Human Resources, in coordination with the Office of
Procurement”. M/HR and M/OP concur with this recommendation. The joint M/HR and M/OP Policy
Notice will advise supervisors to incorporate CTO-related duties and responsibilities into position
descriptions, work objectives, and statements of work on a prospective basis.

It should be noted that a recent BTEC recommendation called for the streamlining of the CS and FS
performance appraisal systems. Reforms in this area will result in a significantly reduced number of
work objectives. Because of this streamlining effort, it will not always be feasible to have a separate
work objective dedicated to the performance of CTO tasks, but supervisors will be expected to
incorporate CTO-related tasks as performance measures under a work objective unless a separate work
objective has been established.

Recommendation No. 4: We recommend that USAID annually evaluate each individual designated to
serve as a cognizant technical officer based on the performance of their cognizant technical officer
duties and responsibilities.

Management Comments and Planned Action: Please revise the wording of the audit recommendation by
replacing “USAID” with “the Office of Human Resources, in coordination with the Office of
Procurement”. M/HR and M/OP concur with the need to evaluate the performance of individuals with
CTO duties and responsibilities. The joint M/HR and M/OP Policy Notice will require that annual
performance evaluations of staff with CTO duties address their performance of those duties.

Recommendation No. 5: We recommend that USAID require supervisors to solicit comments on the
performance of cognizant technical officer tasks from contracting officers and other pertinent sources, as
part of each cognizant technical officer’s annual performance evaluation.

Management Comments and Planned Action: Please revise the wording of the audit recommendation by
replacing “USAID” with “the Office of Human Resources, in coordination with the Office of
Procurement”. M/HR and M/OP concur with the recommendation that supervisors should obtain input
from appropriate sources on the employee’s performance of CTO-related tasks. The joint M/HR and
M/OP Policy Notice will advise supervisors to obtain 360 degree feedback from contracting officers and
other appropriate sources when evaluating the employee’s performance of CTO work.

M/HR and M/OP anticipate issuing the joint Policy Notice by September 30, 2004. Accordingly, we
request OIG concurrence with the management comments outlined above.

cc:
M/HR/OD, RDepp
M/HR/PPIM, JJones
M/OP/OD, TBeans
M/OP/POL, RPowell
M/MPI, KWilson




                                                                                                       26
                                                                          Appendix III
                                                                           Page 1 of 3


                        Table 2: Summary of Selected Audit Recommendations
                                by Type of Recommendation

Recommendations                  Central Egypt Guatemala Malawi Mexico Nepal USAID
                                  Asian                                      Bureaus
                                Republics
Audit Objective One (Training)
Develop training plans                            X        X                     X
Monitor and maintain
training plans                                                           X
Arrange for CTOs to attend
training                                  X       X               X      X       X
Allow only certified CTOs
to serve as alternate CTOs         X
Maintain updated master
CTO lists                                                                        X
Audit Objective Two (Accountability)
Incorporate CTO tasks into
position descriptions and
performance documents              X              X        X      X      X       X
Solicit 360-degree feedback
from contracting office staff
and others                         X              X        X      X      X       X
Evaluate all CTOs                         X                       X              X
Issue designation letters for
each contract                                                                    X
Inform contracting officer
of CTO personnel changes                                   X




                                                                                     27
                                                                            Appendix III
                                                                             Page 2 of 3
Table 3: Summary of Audit Recommendations by Bureaus/Mission Audited

Operating Unit            Audit Objective One            Audit Objective Two
                              (Training)                   (Accountability)
Central Asian Republics   •   Evaluate need for          •   Incorporate CTO duties
                              additional training            into position
                          •   Permit only certified          descriptions and
                              CTOs to serve as               performance
                              alternate CTOs                 documents
                                                         •   Require that CTOs be
                                                             evaluated against work
                                                             objectives or
                                                             statements of work
                                                         •   Solicit 360-degree
                                                             feedback from
                                                             contracting office and
                                                             other pertinent sources
Egypt                     •   Arrange for CTOs to        •   Utilize employee work
                              attend required training       plans and evaluate all
                                                             CTOs
Guatemala                 •   Develop training plans     •   Incorporate CTO duties
                              for all CTOs                   into position
                          •   Arrange for CTOs to            descriptions and
                              attend required training       performance
                                                             documents
                                                         •   Solicit 360-degree
                                                             feedback from
                                                             contracting office and
                                                             other pertinent sources
Malawi                    •   Develop training plans     •   Inform contracting
                              for all CTOs                   officer of CTO
                                                             personnel changes
                                                         •   Incorporate CTO duties
                                                             into position
                                                             descriptions and
                                                             performance
                                                             documents
                                                         •   Solicit 360-degree
                                                             feedback from
                                                             contracting office and
                                                             other pertinent sources
Mexico                    •   Arrange for CTOs to        •   Evaluate all CTOs
                              attend required training       annually


                                                                                       28
                                                                              Appendix III
                                                                               Page 3 of 3

Operating Unit             Audit Objective One            Audit Objective Two
                           (Training)                     (Accountability)
Mexico (continued from                                    •   Incorporate CTO duties
previous page)                                                into work objectives
                                                          •   Assess how well they
                                                              meet objectives
                                                          •   Solicit 360-degree
                                                              feedback from
                                                              contracting office
Nepal                      •   Monitor and maintain       •   Incorporate CTO duties
                               training plans                 into position
                           •   Arrange for CTOs to            descriptions and
                               attend required training       performance
                                                              documents
                                                          •   Solicit 360-degree
                                                              feedback from
                                                              contracting office and
                                                              other pertinent sources
USAID Bureaus (GH, EGAT,   •   Develop training plans     •   Incorporate CTO duties
ANE)                           and schedule                   into position
                               uncertified CTOs for           descriptions and
                               required training              performance
                           •   Maintain updated CTO           documents and ensure
                               master lists                   all are evaluated
                                                          •   Solicit 360-degree
                                                              feedback from
                                                              contracting office and
                                                              other pertinent sources
                                                          •   Issue designation
                                                              letters for each contract




                                                                                          29
(This page intentionally left blank.)




                                        30
                                                                               Appendix IV


Worldwide       Seven reports were issued as part of the worldwide CTO audit, as follows:
Audit Reports
Issued          Report No. 1-523-03-005-P, “Audit of USAID/Mexico’s Training, Use and
                Accountability of Cognizant Technical Officers,” June 27, 2003

                Report No. 9-596-03-007-P, “Audit of USAID/Guatemala-Central American
                Program’s Training, Use and Accountability of Cognizant Technical Officers,”
                July 10, 2003 (this report represents the pilot audit)

                Report No. 4-612-03-002-P, “Audit of USAID/Malawi’s Training, Use and
                Accountability of Cognizant Technical Officers,” August 27, 2003

                Report No. 9-000-03-009-P, “Audit of USAID Bureaus’ Training, Use and
                Accountability of Cognizant Technical Officers,” September 22, 2003

                Report No. B-176-04-002-P, “Audit of USAID/Central Asian Republics’
                Training, Use and Accountability of Cognizant Technical Officers,” November
                20, 2003

                Report No. 5-367-04-002-P, “Audit of USAID/Nepal’s Training, Use and
                Accountability of Cognizant Technical Officers,” December 19, 2003

                Report No. 6-263-04-003-P, “Audit of USAID/Egypt’s Training, Use and
                Accountability of Cognizant Technical Officers,” December 29, 2003




                                                                                            31
